STATEMENT OF RELATED CASES
Petitioner-is~unawara"" of any rel-ated-cas-e-s—naw—aandinn hefor-S This
COURT.

CERTIFICATE OF COMPLIANCE
Pursuant to S.CT.Rula 33.2(b), the attached petition i9
proportionately spaced, has only typeface available to individual confined
in an institution, and contains

pages.

In This Petition and Declaration, Petitioner affirms and declares
under the penalty of perjury under the laws of the StatB of Washington
that the contents and appendixes relevant to his comprehension and brought
claims are true and correct; that This Petitioner has read this petition
and support, knows of the contents, and believes the same to be true and
correct to Petitioner's knowledge of it’s creation at the Coyote Ridge
Correction Complex in the County of Franklin, Washington; pursuant to RCW
9A.72.085, pursuant to 28 USC 1746 Dickerson v. Wainwright, 626 F.2d
1184(1980) .
DATED, PROCLAIMED, and FILED pursuant rule, This

3ol /P. Blackmon, Petitioner-Appellant, PRO SE
PA tioner Explicit Invokes ALL UCC / USC Protections

t, ^

Uy of August,2021 .

